                   U.S. Department of Energy
                   Office of Inspector General
                   Office of Audits and Inspections




AUDIT REPORT
National Nuclear Security Administration's
Space-Based Nuclear Detonation Detection
Program




 OAS-L-14-09                          July 2014
                                 Department of Energy
                                   Washington, DC 20585

                                         July 28, 2014


MEMORANDUM FOR THE DEPUTY ADMINISTRATOR FOR DEFENSE NUCLEAR
               NONPROLIFERATION

FROM:                    George W. Collard
                         Assistant Inspector General
                           for Audits
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "National Nuclear Security
                         Administration's Space-Based Nuclear Detonation Detection Program"

BACKGROUND

The National Nuclear Security Administration's (NNSA) Office of Defense Nuclear
Nonproliferation Research and Development manages the Nuclear Detonation Detection (NDD)
Program. The mission of the NDD program is to develop, demonstrate and deliver technologies
to detect worldwide nuclear detonations. NDD efforts are aligned along three functional areas:
space-based; ground-based; and nuclear forensics. NNSA dedicated nearly $300 million in
Fiscal Years 2011 through 2013, to the Space-Based NDD (SNDD) Program to supply detection
sensor payloads and provide on-orbit operational support to meet interagency commitments for
the United States NDD System which serves two broad classes of missions: treaty monitoring
and war fighting.

NNSA agreed to produce eight Global Burst Detector (GBD) payloads for Global Positioning
System (GPS) III satellites and provide them as Government-furnished equipment to the Air
Force Space and Missile Systems Center (Air Force), which is the organization responsible for
the acquisition of GPS III satellites. Sandia National Laboratories (SNL) and Los Alamos
National Laboratory (LANL) are primarily responsible for the development and production of
the sensor payloads. SNL is the main integrator for the GBD payloads and produces three of the
major components. LANL produces two additional components and provides them to SNL for
integration. The payloads are to be delivered by specified dates to the Air Force for inclusion
onto the GPS satellites. As of June 2014, NNSA had delivered two of the eight GBD payloads to
the Air Force and SNL and LANL were working on the third.

Because of the importance of the SNDD mission, we initiated an audit to determine whether
NNSA has effectively managed the Program to meet customer needs.

RESULTS OF AUDIT

NNSA could not ensure, and we could not independently validate, whether it will fully meet
customer needs within the SNDD Program budget. In particular, despite SNL and LANL
officials' assertions that the remaining GBD payloads could be delivered on time, we could not
validate whether the delivery dates could be met within the budget due to a lack of cost and
schedule data for the project. While not specifically required because of the nature of the effort,
we noted SNL and LANL had not utilized key project management tools such as those contained
in Department of Energy (Department) Order 413.3B, Program and Project Management for the
Acquisition of Capital Assets, to manage the SNDD program. Broadening requirements to use
these project management principles has the potential to improve NNSA's monitoring of the
efficiency and effectiveness of the program to ensure that decisions are based on the best
available date.

To its credit, in response to our concerns, NNSA management officials agreed with the need to
utilize additional project management techniques and stated that they planned to implement an
integrated systems engineering function for the SNDD program. For instance, management will
require a more detailed work breakdown structure, synchronize resource-loaded schedules and
improve the rigor of data presented at quarterly program management reviews.

Nuclear Detonation Detection Sensor Payloads

We could not validate whether SNL and LANL could meet the payload delivery dates within the
budget due to a lack of cost and schedule data. SNL and LANL officials asserted that a
significant reduction in the Fiscal Year 2013 budget had forced them to make difficult decisions
concerning prioritization that led to the planned delay of GBD production-related activities.
Specifically, in July 2013, SNL and LANL anticipated delivering the third GBD payload late and
might not be able to deliver the fourth, sixth, and eighth payloads for the GPS III satellites at all
because they could not procure long-lead parts and recruit expertise in time to complete the
payloads by the Air Force need dates. In February 2014, officials at SNL and LANL told us that
all of the remaining GBD payloads will now be delivered on time because they expected the Air
Force to extend the delivery dates for the remaining payloads and Fiscal Year 2014 budgets to
increase.

However, we found that NNSA could not provide information to support its contention that the
schedule for planned payload deliveries would be extended nor could it show how planned
resources and budgets were adequate to meet the scheduled deliverables. When queried, Air
Force officials told us that they also could not confirm NNSA's assumption that the need dates
for the fourth, sixth and eighth payloads would change. Further, neither NNSA nor SNL and
LANL had developed cost and schedule data to support the projected on-time deliveries of the
payloads. In fact, when we asked for such cost and schedule data, a SNL official stated that such
data had not been developed. Finally, NNSA and the laboratories were unable to provide
information on the cost to produce each of the two delivered payloads because they do not track
costs by payload.

Project Management Principles

Cost and schedule data to support on-time deliveries was unavailable because SNL and LANL
had not, in our view, adopted sufficient project management controls for the SNDD program.
Rather, NNSA and contractor program officials stated that the SNDD program was managed to
ensure the payloads would perform to established technical specifications. While we recognize
the importance of meeting technical specifications, it is also important that management employ
sound project management practices to measure cost and schedule performance. These tools,

                                                 2
while they may initially add to SNDD program costs, would enhance management's ability to
recognize issues and permit them to take corrective actions to ultimately reduce costs and
improve schedule performance when necessary. In fact, while an NNSA Office of Acquisition
and Project Management official believed that the intent of Department Order 413.3B
application was limited to capital construction projects, the official agreed that the SNDD
program should implement project management principles such as those outlined in Department
Order 413.3B due to the importance and cost of the payloads.

The following project management tools, tailored for the size and complexity of the project,
could improve overall management of the effort:

   •   An approved performance baseline with the project cost and key milestones and
       completion dates when the payload design is mature, as well as an appropriate change
       control process to manage changes to the performance baselines. We noted that SNL and
       LANL did not establish performance baselines that included the project cost, key
       milestones and completion dates for measurement of project performance.

   •   A work breakdown structure that organizes and defines a project into manageable
       objectives and steps leading to the completion of a project and is used to derive the cost
       baseline. We noted that LANL did not have a work breakdown structure and SNL's work
       breakdown structure was not in sufficient detail to be able to track and measure cost
       performance for an individual payload.

   •   A critical path analysis showing the schedule for the key work elements necessary to
       complete a project on time. SNL and LANL had not established critical paths for the
       project. SNL and LANL had reported to NNSA in July 2013 that they anticipated
       delivering the third GBD payload late and might not be able to deliver the fourth, sixth,
       and eighth payloads for the GPS III satellites at all, in part, because they could not
       procure long-lead parts. The laboratories lacked a critical path analysis to show the
       impact of anticipated delays in long-lead procurements on the overall delivery schedule.

   •   A resource-loaded schedule showing the resources needed to complete a project as
       scheduled. At a minimum, the resource-loaded schedule must contain labor, material and
       equipment costs. We noted that LANL had not developed a resource-loaded schedule
       and SNL's resource-loaded schedule did not always contain all labor and equipment
       costs. A SNL official stated that the component managers have the option to populate the
       resource-loaded schedule with labor and equipment costs or not. We noted that several
       managers did not populate the resource-loaded schedule with this information. Such
       information is needed to ensure that planned resources are commensurate with delivering
       the payloads as scheduled.

   •   An Earned Value Management System (EVMS) for cost variance analysis and to support
       project risk management and decision making. The EVMS uses the project baseline as
       the benchmark to monitor project and contract performance. Although both SNL and
       LANL have a site-wide EVMS, the NDD programs at these sites chose not to utilize the
       existing EVMS systems as a tool to monitor and measure project performance.



                                                3
Mission and Program Management Impacts

Without timely delivery of the GBD payloads, the nation's capability to detect nuclear
detonations from orbiting satellites may be jeopardized. The Department's failure to meet critical
milestones may require the Air Force to fabricate mass simulators that provide the necessary
weight and power balance to allow the satellite to function without the GBD payloads.
Furthermore, the failure to apply project management principles prevents NNSA from
monitoring the efficiency and effectiveness of its contractors' performance in delivering
individual sensor payloads and may hinder its ability to make informed decisions regarding the
direction of the SNDD program in the future. This is significant because the current economic
climate and associated Federal budgetary concerns dictate finding ways to improve efficiency
and reduce the cost of agency operations.

To their credit, SNL and LANL are committed to producing reliable, high quality GBD payloads
that meet United States NDD System operational requirements. For instance, SNL had adopted
an aerospace industry standardized quality management system for its SNDD program. SNL
officials informed us that they were certified under the international AS9100c, quality
management standards. Additionally, LANL is introducing each project lead to its quality
assurance plan, which is based on Department Order 414.1D, Quality Assurance, criteria, and is
ensuring that training for critical skills is properly tracked. Furthermore, we noted no material
exceptions in our review of SNL and LANL technical requirement validation tests.

SUGGESTED ACTION

NNSA is aware of the lack of project management principles utilization in managing the SNDD
Program and plans to take action to address the situation such as requiring a more detailed work
breakdown structure and synchronizing the resource-loaded schedules. Therefore, we are not
making any formal recommendations. However, we suggest that the Deputy Administrator for
Defense Nuclear Nonproliferation, National Nuclear Security Administration, ensure that the
Space-Based Nuclear Detonation Detection Program Manager, in coordination with the National
Nuclear Security Administration's Office of Acquisition and Project Management, incorporate
project management principles such as those outlined in Department Order 413.3B into the
SNDD Program, as appropriate.

We appreciated the cooperation of your staff that provided information and assistance during the
audit.

Attachment

cc:    Deputy Secretary
       Administrator, National Nuclear Security Administration
       Chief of Staff




                                                4
                                                                                     Attachment


                   OBJECTIVE, SCOPE AND METHODOLOGY
OBJECTIVE

The objective of this audit was to determine whether the National Nuclear Security
Administration (NNSA) has effectively managed the Space-Based Nuclear Detonation Detection
(SNDD) program to meet customer needs.

SCOPE

We performed this audit from June 2013 to July 2014, at NNSA Headquarters in Washington,
DC; Sandia National Laboratories in Albuquerque, New Mexico; Los Alamos National
Laboratory in Los Alamos, New Mexico; Lawrence Livermore National Laboratory in
Livermore, California; and the Air Force Space and Missile Systems Center in Los Angeles,
California. The audit was conducted under Office of Inspector General Project Number
A13LL041.

METHODOLOGY

To accomplish the objective, we:

   •   Reviewed Department of Energy guidance for program and project management controls;
   •   Reviewed SNDD life cycle plans, program management reviews, internal reviews and
       risk assessments, as well as resource-loaded schedule and work breakdown structure;
   •   Interviewed key Federal and contractor personnel associated with the SNDD Program;
   •   Interviewed key Air Force personnel associated with integrating Global Burst Detector
       payloads onto satellite platforms;

   •   Toured SNDD program facilities at Sandia National Laboratories and Los Alamos
       National Laboratory to include design, production and assembly areas as well as
       component storage facilities; and

   •   Tested a sample of technical requirement verification processes.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. The audit included tests of
controls and compliance with laws and regulations necessary to satisfy the audit objective. We
also assessed compliance with the GPRA Modernization Act of 2010. In particular, we
determined that performance measures related to the SNDD program were established as
required. Because our review was limited, it would not have necessarily disclosed all internal
control deficiencies that may have existed at the time of our audit. We did not rely on computer-
generated data to satisfy our objective. Management waived an exit conference.


                                                5
                                        FEEDBACK
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                              Office of Inspector General (IG-12)
                                     Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
